CERTIFICATE OF WORD COUNT
No. TBD
Thomas Nesbitt,
Petitioner (s),
v.
Scott Frakes,
Respondent(s).

STATE OF MASSACHUSETTS )
) SS.:
COUNTY OF NORFOLK
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Thomas Nesbitt Petition
for Writ of Certiorari contains 7563 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of peijury that the foregoing is true and correct.

^—

Lucas'DeDeus
March 27, 2020

SCP Tracking: Nesbitt-P.O. Box 11099-Cover White

